No. 19-416
IN THE

Ouprente Court of the Mullett Otatesi
NESTLE USA, INC.,
Petitioner,
v.
JOHN DOE I, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

SUPPLEMENTAL BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,769 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 4, 2020.

4
ogan
Colin Case
Wilson-Epes Printing Co., Inc.

